Audit of USAID's Governmentwide Commercial
Purchase Card Program

Audit Report Number 9-000-02-004-P

March 19, 2002




                 Washington, D.C.
U.S. AGENCY FOR
 INTERNATIONAL
  DEVELOPMENT

Office of Inspector General

March 19, 2002


MEMORANDUM
FOR:               Office of Procurement Director, Mark S. Ward
                   Acting Chief Financial Officer, Elmer S. Owens

FROM:              IG/A/PA Director, Dianne L. Rawl /s/

SUBJECT:           Audit of USAID’s Governmentwide Commercial Purchase
                   Card Program (Report No. 9-000-02-004-P)

This is our final report on the subject audit. In finalizing the report, we
considered your formal response to the draft report, as well as two
subsequent emails, all of which are included in Appendix II.

This report contains ten recommendations. Recommendation Nos. 1
through 3 are to take actions that could result in annual management
efficiencies estimated at approximately $1.3 million by expanding the use of
purchase cards and increasing the amount of purchase card rebates. In your
comments, you agreed to implement most of those actions, but did not
concur with our estimated savings amounts. For recommendations dealing
with efficiencies, a management decision cannot be reached until
management and the OIG agree on the amount of estimated savings.
Consequently, we do not consider a management decision to have been
reached for any of the three recommendations. Please provide within 30
days any additional information related to actions planned or taken to
implement these recommendations, as well as your proposed estimated
savings amounts.

Recommendation Nos. 4 through 10 address strengthening various internal
controls relating to the purchase card program and are procedural in nature.
Based on your comments, we consider all seven to have received a
management decision. Please coordinate any final actions with M/MPI.

I appreciate the cooperation and courtesy extended to my staff during the audit.

                                                                                   1
                  1300 PENNSYLVANIA AVENUE, N.W.
                      WASHINGTON, D.C. 20523
Table of   Summary of Results                                             3
Contents
           Background                                                     4

           Audit Objectives                                               5

           Audit Findings:                                                5
           Has USAID used purchase cards to the extent required by
           applicable laws, regulations, and policies?                    5

                  USAID Needs to Enforce Its Policy of Using
                  Purchase Cards for All Eligible Micropurchases          6

                  USAID Should Expand the Use of Purchase Cards
                  above the Micropurchase Level                           9

                  USAID Could Significantly Increase the Amount
                  of Rebates Earned from Purchase Card Provider          12

           Has USAID designed and implemented effective controls over its
           purchase card program?                                         16

                  USAID Needs to Improve Controls over Selecting
                  Sources of Supplies and Services                       16

                  USAID Needs to Improve Controls to Safeguard
                  Purchase Cards                                         18

                  USAID Needs to Improve Documentation of Purchase
                  Card Approval and Usage                                19

                  USAID Needs to Improve Controls over the Segregation
                  Of Duties                                              20

                  USAID Needs to Reinforce Training of Cardholders and
                  Approving Officials                                    21

                  USAID Needs to Improve Oversight of Its Purchase
                  Card Program                                           22

           Management Comments and Our Evaluation                        23

           Appendix I - Scope and Methodology                            26

           Appendix II - Management Comments                             28


                                                                               2
Summary of               During the 1990s, Congress enacted legislation to allow federal agencies to
Results                  simplify procedures for small purchases in order to promote efficiency and
                         economy in contracting. The Governmentwide Commercial Purchase Card
                         (purchase card) Program was established to enable federal agencies to further
                         streamline the acquisition process. A goal established for civilian agencies
                         was to place 80 percent of micropurchases, or 75 percent of purchases under
                         $25,000, on purchase cards during fiscal year 2001. (See page 4.)
image of purchase card
                         This audit was designed to determine whether USAID had (1) used purchase
                         cards to the extent required by federal laws and regulations, as well as USAID
                         policies, and (2) designed and implemented effective controls over its
                         purchase card program. (See page 5.)

                         The principal findings in this audit included:

                            •   USAID did not use purchase cards to the extent required by federal
                                laws and regulations, or USAID policies, resulting in additional
                                transaction costs and reduced rebates. (See pages 5 through 12.)

                            •   USAID did not maximize the amount of possible rebates from the
                                purchase card provider because it had not increased the number of
                                purchase card transactions, expanded the purchase card program to
                                include higher-value purchases, paid invoices promptly, or
                                implemented certain electronic commerce policies. (See pages 12
                                through 16.)

                            •   USAID did not design and implement effective controls over its
                                purchase card program to minimize the risk of inappropriate use of
                                purchase cards. (See pages 16 through 23.)


                         This report includes three recommendations to achieve potential management
                         efficiencies and seven recommendations to strengthen various internal
                         controls. The efficiency recommendations, if acted upon, should help USAID
                         reduce future transaction costs by an estimated $715,000 annually and
                         increase monetary rebates earned by an estimated $576,000 annually. (See
                         pages 5 through 23.)

                         In comments to the draft audit report (included in Appendix II), USAID
                         management indicated that it generally concurred with our recommendations.
                         However, for Recommendation Nos. 1 through 3, management expressed
                         concern in achieving the estimated savings and identified a system change
                         which it deemed would be necessary prior to expanding the purchase card



                                                                                                         3
                         program. Although, management agreed that, with the expansion of the
                         purchase card program, efficiencies will occur, rebates will increase, and the
                         acquisition process will be streamlined, management disagreed with our
                         estimated savings amounts. Consequently, we do not consider any of the
                         three recommendations with stated efficiencies to have received a
                         management decision. In its comments, USAID management concurred with
                         Recommendation Nos. 4 through 10 and indicated a final action date of March
                         10, 2003 for each. Consequently, we consider all seven of these
                         recommendations to have received a management decision. (See pages 23
                         through 25.)



Background               In recent years Congress has enacted legislation designed to simplify and
                         streamline the acquisition of goods and services by federal agencies.1 The
                         Governmentwide Commercial Purchase Card (purchase card) was established
                         as a purchase and payment tool to enable federal agencies to implement
                         simplified procedures and streamline the acquisition process by quickly
                         ordering and paying for procurements. The purchase card program includes
image of purchase card   purchases and payments of goods and services both at the micropurchase level
                         (below $2,500) and up to the Simplified Acquisition Threshold of $100,000.
                         The legislation also allowed agencies to purchase commercially available
                         goods and services and provided for the increased use of electronic commerce
                         to order, receive, and pay for those goods and services, resulting in further
                         streamlining of the acquisition process.

                         A key feature of the purchase card program is the opportunity for agencies to
                         earn rebates. Rebates are based on the agencies' sales volume, payment
                         performance, and use of electronic processes for submitting and receiving
                         purchase card statements and reports. Rebates may be used to cover general
                         operating expenses of participating agencies.

                         The General Service Administration (GSA) negotiated new purchase card
                         contracts with federal agencies, effective November 30, 1998 through
                         November 29, 2003. According to GSA, agencies could save more than $53
                         per transaction2 in administrative costs each time they use a purchase card
                         instead of a purchase order. The Procurement Executives Council’s
                         Governmentwide Acquisition Performance Measurement Program established
                         the goal for civilian agencies to place 80 percent of their micropurchases or 75
                         percent of transactions below $25,000 on purchase cards during fiscal year
                         2001.


                         1
                          The Federal Acquisition Streamlining Act (FASA) of 1994 (PL 103-355) and the Federal
                         Acquisition Reform Act of 1996 (PL 104-106).
                         2
                           See GSA’s Federal Supply Service: GSA Smart Pay Executive Summary (1999).



                                                                                                                 4
                           USAID, through its purchase card provider Citibank, placed a total of 725
                           micropurchase transactions, valued at $741,164, on purchase cards from
                           December 1998, through December 2000. USAID received purchase card
                           rebates of $4,464 from Citibank during the same period.



  Audit Objectives As part of its fiscal year 2001 audit plan, the Office of Inspector General’s
                           Performance Audits Division conducted this audit to answer the following
                           questions:

                               •   Has USAID used purchase cards to the extent required by applicable
                                   laws, regulations, and policies?
  image of purchase card

                               •   Has USAID designed and implemented effective controls over its
                                   purchase card program?

                           This audit focused primarily on the use and control of purchase cards at
                           USAID headquarters in Washington, D.C. (USAID/W) and did not review the
                           use of purchase cards by USAID’s overseas missions. Therefore, references
                           to USAID’s purchase card program policies and procedures and tests of
                           transactions and interviews with agency personnel refer to USAID/W only.
                           However, implementation of the recommendations in this report should
                           benefit USAID's purchase card program on a worldwide basis.

                           Appendix I contains a discussion of the scope and methodology for this audit.


Audit Findings             Has USAID used purchase cards to the extent required by
                           applicable laws, regulations, and policies?
                           USAID has not used purchase cards to the extent required by federal laws and
                           regulations or its own internal policies because it has not used purchase cards
                           for all eligible3 micropurchase transactions. Further, USAID has not designed
image of purchase card     its purchase card program to routinely include purchases above the
                           micropurchase level. As a result, USAID incurred nearly $1.2 million in
                           additional transaction costs during 1999 and 2000, and failed to earn about
                           $1.2 million in potential monetary rebates during the same period. USAID
                           could save an estimated $715,000 in transaction costs annually and earn an
                           estimated $576,000 annually in monetary rebates by:

                                       •    enforcing its policy of using purchase cards for all eligible
                                            micropurchases;
                           3
                            According to FAR-13.3, purchase cards may be used only for purchases that are otherwise
                           authorized by law or regulations.



                                                                                                                      5
              •   expanding the use of purchase cards above the micropurchase
                  level; and

              •   taking additional steps to maximize purchase card rebates.


USAID Needs to Enforce Its Policy of Using
Purchase Cards for All Eligible Micropurchases

Federal regulations require that agencies use purchase cards as the preferred
method of purchasing and paying for micropurchases−defined as purchases
not exceeding $2,500. USAID policy requires that all eligible micropurchases
be made on purchase cards. During 1999 and 2000, USAID reported making
micropurchases totaling $15 million, of which only $741,163, or 5 percent,
were made by purchase card. A governmentwide goal for civilian agencies is
to place 80 percent of micropurchases on purchase cards. USAID did not use
purchase cards for the majority of its micropurchases because USAID
management did not encourage, monitor, or enforce the use of purchase cards
for all eligible micropurchases. In particular, USAID’s Office of Procurement
did not provide adequate training or guidance to employees regarding the use
of purchase cards. As a result, during 1999 and 2000, USAID incurred an
estimated $736,000 in avoidable transaction costs. In addition, USAID also
experienced unnecessary delays in processing micropurchase procurement
actions and did not receive the benefit of substantial monetary rebates tied to
purchase card use. By ensuring that at least 80 percent of future
micropurchases are made with purchase cards, USAID could avoid $452,000
in annual transaction costs, shorten procurement processing time, and earn an
estimated $8,000 per year in additional rebates.

The Federal Acquisition Regulation (FAR)4 encourages agency heads to
delegate micropurchase authority and indicates that purchase cards are the
preferred method for purchasing and paying for micropurchases. To
streamline administrative costs associated with micropurchases, the FAR
allows agencies to make micropurchases without soliciting competitive
quotations if the individual making the purchase considers the price to be
reasonable.

USAID’s internal policy allows certain employees to receive and use purchase
cards for transactions within the micropurchase limit of $2,500. Chapter 331
of USAID’s Automated Directives System (ADS) states that appointed non-
procurement personnel may be issued a purchase card and given authority to
procure goods and services within the constraints of their individual office

4
    FAR 13.201.



                                                                                6
budgets and at predetermined credit limits not to exceed $2,500 per
transaction.

The ADS goes on to say:

        All operating expense funded procurements for
        commodities and services eligible for purchase on the card
        below $2,500 in value must be processed on those cards
        issued to cardholders within the respective offices and
        Bureaus and are not to be forwarded to M/OP for
        processing. 5

In addition, the Procurement Executives Council’s Governmentwide
Acquisition Performance Measurement Program set a governmentwide goal
for civilian agencies to place 80 percent of their micropurchases on purchase
cards in fiscal year 2001.

Despite federal guidance and internal policies that encourage the use of purchase
cards, USAID did not use purchase cards for the majority of its micropurchases.
According to its accounting records,6 USAID completed 18,021
micropurchase transactions, totaling $15,081,236, during 1999 and 2000. Of
those micropurchase transactions, only 725 (4 percent of transactions), totaling
$741,163 (5 percent of dollar value), were made using purchase cards.

Many of USAID’s micropurchases could have been made using purchase cards,
but were procured through purchase orders instead. For example, USAID policy
and Citibank literature state that training expenses are eligible for purchase card
usage as long as the vendors accept credit card payments. We reviewed a
random sample of 100 out of 1,008 purchase order transactions for training
expenses under $2,500 from USAID’s accounting records for the period of
December 1998 through December 2000. For each of the sampled transactions,
we reviewed related accounts payable vouchers, interviewed individual
cardholders and approving officials, and conducted telephone interviews with
vendors. Through these reviews, we determined that 91 percent of the
training transactions were eligible for, and should have been charged to
purchase cards.

Cardholders and approving officials interviewed were unaware of the federal
and USAID requirements to use purchase cards for all eligible
micropurchases. They attributed this lack of knowledge to training that was
not sufficient to ensure a good working knowledge of the purchase card
program. For example, prior to being issued a purchase card, cardholders and

5
 ADS 331.5.3.
6
 Source: AID Worldwide Accounting and Control System. We did not validate the accuracy
or reliability of this financial data.



                                                                                     7
approving officials received only a one-time, three-hour course and no further
training was required to reinforce or update the information provided in the
original training course. (The lack of adequate training is discussed further as
a control weakness in another section of this report−see page 21.)

Insufficient guidance may also have contributed to the low usage of purchase
cards for micropurchases. For example, a May 1999 USAID/General Notice7
appeared to limit the use of purchase cards to specific types of purchases, rather
than encourage their use to all eligible micropurchases. The notice indicated that
purchase cardholders were authorized to use their cards for:

    •    general office supplies and materials, including subscriptions;

    •    conference rooms and related expenses;

    •    training; and

    •    transcription services.

Cardholders said they believed this list was intended to be all-inclusive, rather
than illustrative. While limited training and insufficient guidance may have
contributed to the low usage of purchase cards for making micropurchases, the
principal cause was that USAID managers responsible for overseeing the
purchase card program did not have adequate procedures in place to regularly
encourage, monitor, or enforce the use of purchase cards for all eligible
micropurchases.

Because USAID did not use purchase cards for all eligible micropurchases, it
has incurred substantial additional transaction costs. For example, GSA has
estimated that agencies could save an average of $53.77 per transaction each
time a purchase card is used.8 By applying GSA’s figure to USAID’s reported
transactions valued below $2,500 for the two-year period reviewed, we
estimate that the USAID could have saved $736,000 in transaction costs. By
meeting the goal set for civilian agencies of using purchase cards for 80
percent of future micropurchases, USAID could save an estimated $452,000
annually in transaction costs.

By using purchase cards, rather than more traditional procurement methods,
USAID could also avoid unnecessary delays in processing micropurchases by
streamlining the procurement process. For example, a recently issued USAID
General Notice9 indicated that managers should expect to wait approximately

7
  USAID/General Notice issued May 13, 1999 by M/OP.
8
  GSA adjusted its estimate, for inflation, to $66 of savings per transaction for purchase card
transactions in fiscal year 2000.
9
  USAID/General Notice, issued April 13, 2001, by M/OP.



                                                                                                  8
69 days for a purchase order to be processed. By comparison, purchase card
transactions could be processed in a single day.

As a result of not using purchase cards for all eligible micropurchases, USAID
has also missed an opportunity to earn an estimated $8,000 per year in
additional rebates offered by the purchase card provider. (Rebates are
discussed more fully in a later section of this audit report−see page 12.)

In conclusion, we believe that USAID could substantially reduce transaction
costs, streamline the procurement process, and benefit from additional rebates
by establishing, documenting, and monitoring procedures to maximize use of
purchase cards for all eligible micropurchases in accordance with federal
guidance and USAID’s own internal policy.

          Recommendation No. 1: We recommend that the Director of the
          Office of Procurement develop and document procedures to
          encourage, monitor, and enforce the use of purchase cards for all
          eligible micropurchases to save an estimated $452,000 in
          transaction costs and earn $8,000 in additional rebates during the
          succeeding 12-month period.


USAID Should Expand the Use of Purchase
Cards Above the Micropurchase Level

Contrary to federal requirements, USAID policy limits the routine use of
purchase cards to purchases at or below the micropurchase level. USAID
officials did not revise internal policies to reflect changes in federal laws and
regulations requiring expanded use of purchase cards above the
micropurchase level because it was not a high management priority and
because management was unfamiliar with the benefits of purchase card usage.
As a result, during 1999 and 2000, USAID incurred an estimated $428,600 in
avoidable transaction costs for purchases above the micropurchase level,
experienced unnecessary delays in processing procurement actions under the
Simplified Acquisition Level, and did not benefit from an estimated $143,000
per year in additional rebates associated with the increased volume of
purchase card use.

The FAR requires agencies to use simplified acquisition procedures, such as use
of purchase cards, to the maximum extent practical. Specifically, the FAR states
that agency procedures should not limit the use of purchase cards to
micropurchases.10 Rather, the FAR indicates that agency procedures should
encourage the use of purchase cards in greater dollar amounts−up to the


10
     FAR 13.301.



                                                                                9
Simplified Acquisition Threshold of $100,000. The FAR11 encourages agencies
to be innovative in expanding the use of their purchase card programs for the
following:

      •   micropurchases;

      •   task or delivery orders (if authorized in the basic contract, basic ordering
          agreement, or blanket purchase agreement); or

      •   payments to contractors, when the contractors agree to accept payment
          by credit card.

The Treasury Financial Manual (TFM) also requires that agencies not limit their
use of purchase cards to micropurchases. The TFM indicates that purchases up
to $25,000 should be made with purchase cards.

          Small purchases of up to $25,000 should be made using the
          Government purchase card. Other small purchase methods…
          may only be used in lieu of the Government purchase card
          when it is more cost-effective, practicable, or required by
          existing statutes. 12

To encourage agencies to expand their use of purchase cards, the Procurement
Executives Council has established a governmentwide goal for civilian agencies
to process at least 75 percent of their transactions below $25,000 on purchase
cards.

Despite guidance to maximize the use of purchase cards, USAID policy
continued to restrict the routine use of purchase cards by non-procurement,
administrative personnel to the micropurchase level. This resulted in a common
misconception within USAID that purchase cards should only be used for
micropurchases. USAID’s Automated Directives System (ADS) 331.5.2 states:

          Appointed non-procurement personnel may be issued a U.S.
          Government Credit Card and given authority to procure goods
          and services within the constraints of their individual office
          budgets and at predetermined credit limits not to exceed $2,500
          per transaction. [emphasis added]

USAID’s policy to limit the use of purchase cards to micropurchases was also
evidenced in a May 1999 General Notice that indicated that cardholders were
only authorized to use their purchase cards for individual purchases not
exceeding $2,500. However, the notice also indicated that the Office of

11
     FAR 13.003 and FAR 13.301.
12
     TFM 4-4500.



                                                                                    10
Procurement could increase an individual cardholder’s $2,500 limit, if done in
writing.

        Only individuals who have received the Citibank training and
        the NMS AWACS13 orientation may be issued the purchase
        card. With the issuance of a purchase card to an individual, a
        delegation of authority will be issued to said individual for
        the micropurchase authority limit (not to exceed $2,500),
        unless such limit is increased in writing by the Office of
        Procurement, Evaluation Division (M/OP/E).

According to the Office of Management and Budget, prior to increasing
a purchase cardholder’s per transaction limit above $2,500, that
individual is required to attend a one-week training course dealing with
Simplified Acquisition Procedures. Upon completion of that course, the
cardholder’s delegation of authority may be increased beyond $2,500, up
to a maximum of $100,000. However, only 5 of USAID’s 107
cardholders had been given authority to exceed the $2,500 limit.

Many of the cardholders interviewed indicated that their duties and
responsibilities often required them to obtain goods or services valued in
excess of $2,500. However, because of the per transaction spending
limit on their purchase cards, these cardholders would write purchase
orders for these larger procurements, rather than use their purchase cards.

The majority of USAID’s procurement officials with warrant authority
above $2,500 either had not been issued a purchase card or, if issued one,
did not routinely use it for procuring goods and services above $2,500.
USAID’s listing of warranted procurement personnel includes 56
Washington-based personnel. We found that only 3 of the 56 had been
issued purchase cards.

USAID management has not encouraged the use of purchase cards above the
micropurchase level because it has not been a high management priority.
Also, management did not fully understand how the purchase card could
streamline the procurement process and result in monetary rebates that could
be used by USAID.

We estimate that USAID incurred $428,600 in additional administrative costs
during the period reviewed by applying GSA’s estimate of $53.7714 in savings

13
 New Management System's AID Worldwide Accounting and Control System.
14
  Calculation was based on assumption that USAID will meet the PEC’s civilian agencies
goal of placing 75 percent of purchases of $25,000 or less on purchase cards each year and on
GSA’s estimate, adjusted for inflation, of $66 for transactions made beginning fiscal year
2000.



                                                                                          11
per transaction to USAID’s reported transactions valued between $2,500 and
$100,000. In the future, we estimate that USAID could save as much as
$263,000 annually by expanding the routine use of purchase cards above the
micropurchase level.

Similar to the discussion of micropurchases in the prior section of this report,
by not routinely using purchase cards for transactions above $2,500, USAID
has experienced unnecessary delays in processing procurement actions and
has not benefited from potential monetary rebates estimated at $143,000 per
year from increased purchase card usage. (Rebates are discussed more fully
in the following section of this audit report.)

In conclusion, failure to expand the use of purchase cards above the
micropurchase level has resulted in substantial additional transaction costs
because USAID has continued to use other, more costly and time-consuming,
procurement methods. We recommend that USAID’s Office of Procurement
establish and document policies and procedures to expand the use of purchase
cards above the micropurchase level in accordance with federal laws and
regulations, in order to reduce transaction costs, streamline the procurement
process, and benefit from potential rebates.

       Recommendation No. 2: We recommend that the Director of the
       Office of Procurement revise the Automated Directives System to
       authorize and encourage the routine use of purchase cards above
       the micropurchase level and develop a plan to provide the
       necessary training for purchase cardholders to increase their
       delegation of authority, when appropriate, to make purchases
       above the micropurchase level to save an estimated $263,000 in
       transaction costs and earn an estimated $143,000 in additional
       rebates during the succeeding 12-month period.


USAID Could Significantly Increase the Amount
of Rebates Earned from Purchase Card Provider

USAID did not receive the maximum amount of rebates available through its
purchase card program because management did not ensure that (1) purchase
cards were used to the maximum extent possible; (2) invoices were paid in a
timely manner; or (3) invoices and reports were received electronically. As a
result, USAID received only $4,464 in rebates for procurements made during
1999 and 2000. We estimate that USAID could have earned $1.2 million
during the same period. By making changes in its purchase card program,
USAID could potentially earn $576,000 in rebates annually. (See table on
page 15.)




                                                                              12
One of the benefits of participating in the purchase card program is the
opportunity to earn rebates from purchase card providers. Such rebates result
from sales volume and payment performance and may be used to cover
general operating expenses of participating agencies. In fiscal year 1999, U.S.
Government agencies received over $55 million in purchase card rebates.

USAID’s purchase card provider, Citibank, calculates total purchase card
rebates by combining several different types of rebates. The more significant
rebate types are described below:

     •   Net Charge Volume Rebate−based on the dollar value of transactions.
         The more transactions on the purchase card, the higher the rebates
         earned.

     •   Productivity Rebate−based on the number of days prior to the due date
         that the invoice is paid. The sooner the payment is made, the higher
         the rebate earned.

     •   Electronic Commerce Rebate−based on the receipt of statements and
         reports through electronic transmission and payment of statements
         through the electronic transfer of funds.

Citibank assigns a specified number of “basis points” for each type of rebate,
based on the degree to which USAID meets the respective criteria. Earned
basis points are then used to calculate a total or composite rebate amount.
Basis points can be negotiated upward if volume increases. USAID has
opportunities to generate rebates in a number of different ways.

Increasing the Net Volume Rebate by Expanding Purchase Card Usage –
Net volume of purchase card usage is a significant factor affecting the total
rebate calculation. As discussed in the previous sections of this report, we
believe that USAID should increase its use of purchase cards. By increasing
purchase card usage to the targets established by the Procurement Executives
Council, USAID could earn as much as $151,00015 annually in net volume
rebates. (See table on page 15.)

Increasing the Productivity Rebate by Timely Payment of Invoices –
The productivity rebate is principally based on how quickly USAID pays
purchase card invoices: the sooner the invoices are paid, the higher the rebate
earned. For example, invoices paid within 15 days earn 34.5 basis points,



15
  Under the current GSA negotiated governmentwide contract, USAID is paid 14 basis points
for the net charge volume rebate. Four of those basis points are paid to GSA as an "Industrial
Funding Fee" leaving a net 10 basis points as the rebate amount received by USAID.



                                                                                           13
while those paid between 15 and 30 days earn only 12 basis points.16 Invoices
paid after the due date earn no basis points and do not generate a productivity
rebate.

Timely payment of purchase card invoices is also governed by federal laws,
regulations, and USAID’s own internal policies. For example, the Prompt Pay
Act17 allows agencies to pay single invoices under $2,500 at any time, but not
later than 30 days after the receipt of a proper invoice. USAID policy18
requires the use of the government credit card, use of accelerated payment
methods in compliance with the Debt Collection Improvement Act of 1996,
and an annual cost/benefit analysis to determine optimal credit card payment
dates. As yet, USAID has not performed a cost/benefit analysis to determine
the optimal date for paying purchase card invoices.

From a sample of 90 purchase card invoices received by USAID during 1999
and 2000, we reviewed 81 and found that 74 invoices19 (91 percent) were paid
after the due date. We estimate that, by paying all purchase card invoices
within 15 days, USAID could earn a total of $371,000 annually in
productivity rebates. (See table on page 15.)

Increasing the Electronic Commerce Rebate by Receiving Invoices and
Reports Electronically – USAID could have earned the electronic commerce
rebate by arranging with Citibank to receive purchase card invoices and
reports electronically. However, USAID never made the necessary
arrangements to receive invoices and reports electronically. We estimate that,
by making such arrangements, USAID could earn additional electronic
commerce rebates totaling $54,000 annually. (See table on page 15.)

In addition to earning potential rebates, the use of electronic commerce is also
required by federal laws and regulations. For example, the Government
Paperwork Elimination Act requires agencies, based on cost-benefit analyses,
to develop and implement plans for the use of electronic forms and electronic
transactions based on cost-benefit analyses. Agency heads are also required to
streamline their procurement process through electronic commerce. To assist
USAID in managing its purchase card program, the GSA Master Contract
with Citibank offers 32 reports to USAID, all available electronically.
Currently, USAID receives only eleven reports – none electronically. USAID
has not taken advantage of Citibank’s electronic reporting capabilities because
management never made the necessary arrangements to receive reports
16
   The basis points given to a government agency in the calculation of the productivity rebate
are negotiable. The number of basis points that an agency is able to negotiate is normally
directly related to the net sales volume of the program. Thus, increasing purchase card usage
would translate into leverage for negotiating higher basis points for the productivity rebate.
17
   5 CFR 1315.
18
   ADS 630; USAID General Notice, CFO dated January 4, 2001.
19
   Nine of the 90 invoices could not be located.



                                                                                            14
electronically. Consequently, USAID management has not benefited by
receiving electronic reports to help manage its purchase card program.


Estimated Additional Purchase Card Rebates USAID Could Earn Annually
 Procurement Levels       Net Volume       Productivity       Electronic      Total Rebate
    (By Amount)             Rebate           Rebate        Commerce Rebate

 Less than $2,500                $8,000          $19,000             $3,000           $30,000
 $2,500 to $100,000            $143,000         $352,000            $51,000          $546,000

 Totals                        $151,000         $371,000            $54,000          $576,000



According to the Congressional Budget Justification for 2002,20 USAID may
use any rebates received from the purchase card provider to cover general
operating expenses by depositing the rebates into its Working Capital Fund
(WCF). The WCF is authorized by Section 635(m) of the Foreign Assistance
Act of 1961, as amended, and may receive deposits of rebates generated from
the use of federal credit cards. Such deposits would be available to cover
USAID’s general operating expenses.

In conclusion, USAID has not received the maximum amount of purchase
card rebates available because it did not ensure that purchase cards were used
to the maximum extent possible, that invoices were paid in a timely manner,
and that invoices and reports were received electronically. We believe that
USAID could significantly increase its purchase card rebates by making
changes in these areas. The following recommendation does not include
$151,000 in estimated additional net volume rebates because we have already
made recommendations to that effect in prior sections of this report. The
remaining estimated productivity and electronic commerce rebates total
$425,000.

           Recommendation No. 3: We recommend that the Chief Financial
           Officer develop a plan to qualify for additional rebates totaling
           $425,000 in the succeeding 12-month period by:

           •    determining the optimal payment date for purchase card
                invoices, based on annual cost/benefit analyses;
           •    developing and documenting procedures requiring that
                purchase card invoices are paid by that optimal date;
           •    arranging with Citibank to receive purchase card invoices and
                reports electronically, and
           •    negotiating an increase in basis points with Citibank based on
                increased transactions.

20
     See USAID’s Budget Justification to the Congress for Fiscal Year 2002, p. 47.



                                                                                                15
Has USAID designed and implemented effective controls over
its purchase card program?
Agencies using the governmentwide commercial purchase card are required to
establish controls so that their respective purchase card programs comply with
federal laws and regulations.21 Controls are to be established at various levels
within the purchase card program, based on the responsibilities of cardholders,
approving officials, and the Agency Program Coordinator.22

USAID had not designed and implemented effective controls over its purchase
card program to minimize the risk of inappropriate use of purchase cards.
This report identifies a number of significant control weaknesses in USAID’s
purchase card program regarding training, supplier selection, safeguarding of
cards, documentation of transactions, and segregation of duties. Many of
these weaknesses were the result of inadequate training and oversight. Unless
corrected, these weaknesses significantly increase the risk of intentional or
accidental misuse of the purchase cards, especially if the program is expanded
as recommended.

Despite identifying control weaknesses in the areas mentioned above, our audit
found no indication that USAID employees were intentionally or accidentally
misusing purchase cards.23


USAID Needs to Improve Controls
over Selecting Sources of Goods and Services

Contrary to the FAR and USAID guidance,24 cardholders did not purchase
goods and services from the highest priority sources available and routinely
ordered from the same suppliers. Cardholders did not comply with federal
source selection regulations due to insufficient training and oversight. As a
result, USAID may have paid more than necessary for goods and services
obtained with purchase cards and its procurements did not benefit designated
special interest suppliers.

The FAR25 lists sources for supplies and services in order of priority.
Purchase cardholders are expected to review list of required sources for
supplies and services and to purchase from them in order of priority. The

21
   FAR 13.301 and TFM 4-4500
22
   TFM 4-4500
23
   Audit did not assess controls in overseas offices.
24
   FAR 8.1 and USAID Smart Pay Training
25
   FAR 8.001.



                                                                             16
FAR26 also requires that, to the extent possible, agencies distribute purchases
equitably among qualified suppliers.

Despite these requirements, some purchase cardholders interviewed indicated
that they purchased supplies from commercial vendors without considering
more preferred sources, as listed below. Further, cardholders repeatedly used
the same commercial vendors rather than distributing purchases to various
suppliers.


                   FAR Required Sources of Supplies


                                 FAR 8.001

             Except as otherwise provided by law, agencies shall satisfy
             requirements for supplies and services from or through the
             sources and publications listed below in descending order of
             priority –

                          Supplies.

                     1.   Agency inventories;

                     2.   Excess from other agencies;

                     3.   Federal Prison Industries, Inc.;

                     4.   Products available from the Committee for
                          Purchase From People Who Are Blind or
                          Severely Disabled;

                     5.   Wholesale supply sources;

                     6.   Federal Supply Schedules;

                     7.   Commercial sources (including educational and
                          nonprofit institutions).




Due to a lack of sufficient training and oversight, USAID’s purchase
cardholders did not follow federal regulations regarding the selection of
supply sources. For example, although USAID’s purchase card training
materials instruct cardholders to review the required sources of supplies and
services and to purchase from them according to their preferential ranking,
most of the cardholders and approving officials interviewed were not aware
26
     FAR 13.202.



                                                                                17
that there were preferred sources of supply. The cardholders purchased
supplies from a limited number of suppliers because most of their purchases
were for office supplies and they saw no reason to seek out other qualified
suppliers.

As a result goods and services procured with USAID purchase cards were
routinely ordered from commercial suppliers whose goods and services may
have cost more than those from the U.S. Government’s more preferred
sources. Also, USAID’s purchase card transactions have not benefited
designated special interest suppliers.

        Recommendation No. 4: We recommend that the Director of
        the Office of Procurement develop and implement
        procedures requiring purchase cardholders use their
        purchase cards to order goods and services from the U.S.
        Government’s most preferred sources and that they
        distribute purchases equitably among qualified suppliers.


USAID Needs to Improve Controls
to Safeguard Purchase Cards

Contrary to guidance in the Treasury Financial Manual (TFM) and USAID’s
own internal directives, purchase cardholders did not consistently keep their
purchase cards in safe and secure locations or ensure that other individuals did
not use their cards. This was due, in part, to unclear guidance and inadequate
training. As a result, USAID’s purchase cards were more vulnerable to being
lost or misused.

The TFM requires federal agencies to establish procedures for maintaining the
security of purchase cards. 27 The TFM states that agency procedures must
address safeguarding purchase cards when not in use, and requires agencies to
safeguard purchase cards in the same manner as cash. The Department of the
Treasury’s Manual of Procedures and Instructions for Cashiers indicates that
agencies should store cash in safes, but not in file cabinets with key locks or desk
drawers. Finally, the TFM instructs cardholders that each purchase card should
bear an employee’s name and that only that employee should use the card for
official purchases. 28 USAID’s internal policies require that the individual to
whom it was assigned only use the purchase card.29

Despite this guidance, USAID’s purchase cardholders did not keep their cards in
appropriate locations and often allowed other employees to use their card. For

27
   TFM 4-4500, Government Purchase Cards.
28
   TFM 4-4520.
29
   USAID/General Notice, M/OP, May 13,1999.



                                                                                 18
example, cardholders often kept purchase cards in their wallets or purses or in
their desks or file cabinets. We found in one instance, a cardholder was
reconciling a monthly purchase card statement and noticed a charge that looked
unfamiliar. After researching its origin, the cardholder found that another
employee (also a cardholder) had made the charge because the second employee
had already reached the dollar charge limit on his card for the month. Many
cardholders indicated that they were not aware that there were any requirements
for safeguarding the purchase card. In addition, ADS 331 does not address how
purchase cards are to be safeguarded. Without specific requirements, purchase
cards are vulnerable to loss or misuse.

          Recommendation No. 5: We recommend that the Director of
          the Office of Procurement develop, document, and distribute
          standard procedures, consistent with the Treasury Financial
          Manual, that require cardholders to adequately safeguard
          purchase cards, and require that all cardholders and
          approving officials comply with those procedures.


USAID Needs to Improve Documentation
of Purchase Card Approval and Usage

Both the FAR and USAID’s internal directives provide guidance in the area of
documentation of purchase card usage. Despite this guidance, cardholders did
not consistently use the designated approval form or maintain required
documentary support for their purchase card transactions. Without proper
documentation, purchases made by cardholders are more vulnerable to errors
and misuse.

USAID ’s internal guidance requires purchase cardholders to obtain an
approved credit card transaction form (USAID Form 530-3) prior to each
purchase, and to maintain accurate and complete records of purchases,
including a log.30

USAID’s cardholders did not always follow this guidance. For example, four
of twenty-one cardholders interviewed did not use USAID Form 530-3 to
document their purchases. Three of the twenty-one had no forms to support
their original requests for goods or services, or to show that the requests were
properly approved and funded.

Cardholders failed to maintain all required documentation or keep a log of
purchases. Others developed their own system for maintaining documentation
without following a standard procedure. One cardholder ordered supplies,


30
     USAID/General Notice, M/OP, May 13,1999.



                                                                              19
which he had shipped directly to other end users without obtaining a verification
of receipt.

Cardholders did not routinely follow USAID guidance due to lack of clarity in
the ADS and insufficient training. Without adequate approval and support
documentation, management has little assurance that purchases charged to
purchase cards were necessary for official use, properly approved and funded,
or that the quantity, condition, and receipt of goods were verified.
Consequently, USAID’s purchase card program is more susceptible to
undetected errors and misuse.


           Recommendation No. 6: We recommend that the Director
           of the Office of Procurement revise USAID guidance
           indicate the type of approval and support documentation
           required to be maintained by cardholders, and develop
           procedures requiring that such documentation is properly
           maintained.


USAID Needs to Improve Controls
over the Segregation of Duties

Key responsibilities should be divided among different individuals, thereby
reducing the risk of error or fraud. USAID did not properly segregate the duties
associated with credit card transactions. This occurred because of lack of
adequate guidance, training, and supervision of cardholders and approving
officials. To reduce the risk of error or fraud the General Accounting Office
(GAO) requires key duties and responsibilities to be divided among different
people.31 Responsibilities for authorizing, processing, recording, and reviewing
transactions, and handling any related assets should be distributed. No one
individual should control all key aspects of a transaction or event.

Cardholders were allowed to perform several, if not all, of the key functions of a
purchase card transaction. For example, cardholders were often responsible for
two or more of the following duties:

•          placing orders;

•          committing and obligating funds;

•          receiving and counting merchandise;

•          reconciling invoices for payment; and
31
     GAO-01-585T, issued April 3, 2001.



                                                                                20
•      maintaining support documentation.

This occurred because management did not prepare adequate guidance or
procedures to ensure that duties were properly segregated. Although ADS
331.3 specifically assigned approving officials the responsibility for overseeing
cardholders, many approving officials were not aware of the functions
performed by their cardholders. Most approving officials were unaware of the
procedures relating to purchase card usage and relied heavily on the cardholders
to know and apply them properly.

Inadequate segregation of duties increases the vulnerability of USAID’s
purchase card program to potential fraud, waste, or abuse.

       Recommendation No. 7: We recommend that the Director
       of the Office of Procurement revise USAID guidance to
       indicate which purchase card transaction functions should
       be segregated and develop procedures that require proper
       segregation of duties.


USAID Needs to Reinforce Training of
Cardholders and Approving Officials

Many of the control weaknesses and findings discussed in this report were
due, in part, to inadequate training. The training provided to cardholders and
approving officials was too limited in scope and too infrequent to ensure that
those individuals had and retained the knowledge necessary to properly
implement the purchase card program. Consequently, we believe that USAID
should review its purchase card-training program and develop a plan to
improve the subject matter, as well as the frequency, of the training.

According to GSA, training is the key to understanding and reinforcing
controls over the purchase card program. The TFM states that management of
the purchase card program includes ensuring that training is provided.
USAID’s internal guidance requires that only individuals who have received
specified training be issued a purchase card. This training consists of 2-3
hours of instruction given on a one-time basis.

Based on the lack of understanding of controls over the purchase card
program demonstrated by the cardholders and approving officials interviewed,
it appears that this training has been insufficient. For example, controls
regarding the proper safeguarding of purchase cards and the prioritized selection
of supplier sources were not adequately covered in the purchase card-training
course.




                                                                               21
A possible source of training material is a computerized course developed by
GSA in cooperation with several other federal agencies. This course uses an
interactive format on the Internet that allows the cardholder to call upon the
"instructor" at any time for assistance. The course includes text, video,
interactive media, and reference documents which provide guidance to
cardholders; applicable rules and regulations to educate cardholders on
allowable and unallowable purchases; and catalogs for required sources. Such a
course would be relatively easy to distribute and could be taken at cardholders’
and approving officials’ convenience.

Without adequate training, updated on a frequent basis, purchase cardholders
and approving officials will continue to be unaware of many of the critical
controls and procedures over USAID’s purchase card program. Consequently,
the program will remain more vulnerable to intentional or accidental misuse of
purchase cards.

          Recommendation No. 8: We recommend that the Director of
          the Office of Procurement review its purchase card training
          program and develop a plan to increase the subject matter
          covered by the training, as well as determine how often
          cardholders and approving officials should be required to
          receive training updates.


USAID Needs to Improve Oversight
of Its Purchase Card Program

Many of the control weaknesses described in this report were due, in part, to
inadequate oversight of the purchase card program. The Agency Program
Coordinator (APC) did not perform many of the duties and responsibilities
needed to oversee the program due to the lack of authority, resources, and
management support. Consequently, USAID’s purchase card program remains
vulnerable to intentional or accidental misuse of purchase cards.

The TFM32 requires each agency to designate an office (usually the procurement
office) to manage its purchase card program. Specific duties of that office are to
(1) provide training, (2) maintain a current list of cardholders and approving
officials, and (3) conduct an annual review of the program. USAID has
designated its Office of Procurement to manage its purchase card program. The
Office of Procurement has delegated all program responsibilities to one
employee, the APC.

According to ADS 331.3, USAID’s APC is responsible for implementing and
administering the purchase card program. Also, the APC is the liaison with
32
     TFM-4-4525.



                                                                                22
                 GSA, Citibank (the purchase card provider), the cardholders, approving officials,
                 and USAID management on matters relating to purchase cards. For example,
                 the APC is responsible for monitoring account activity, resolving technical and
                 operational problems, activating core products and services, evaluating
                 contractor performance, and ensuring that cardholders use their cards correctly.

                 USAID has relied on the APC to fulfill these responsibilities with no assigned
                 support staff. As USAID’s primary person for all matters related to purchase
                 cards, this individual is essentially responsible for administering the entire
                 purchase card program. Because upper-level managers have had little or no
                 involvement with the purchase card program, and the APC was solely
                 responsible for such a variety of tasks, many of the controls reviewed during the
                 audit have not been effectively implemented or enforced.

                 One possible cause for the lack of management oversight was the fact that
                 neither the Senior Procurement Executive nor the Director of Procurement had
                 been given overall responsibility for the purchase card program. As a result,
                 neither gave the APC sufficient managerial support to obtain the resources
                 necessary to properly administer the program. Without adequate oversight,
                 USAID’s purchase card program remains vulnerable to potential fraud, waste,
                 and abuse. Lack of oversight is of particular concern if the volume and dollar-
                 value of purchase card transactions significantly increase in the future, as
                 recommended.

                        Recommendation No. 9: We recommend that the Director of
                        the Office of Procurement review the staffing and
                        management structure of its purchase card program and
                        determine the actions necessary to provide the Agency
                        Program Coordinator with the resources and authority to
                        properly administer the program.


                        Recommendation No. 10: We recommend that the Director
                        of the Office of Procurement develop a plan and procedures
                        to monitor and manage its purchase card program as
                        required by the Treasury Financial Manual.




Management       In its comments to the draft audit report (included in Appendix II), USAID
                 management indicated that it generally concurred with all of our
Comments and     recommendations, but not our estimated savings amounts. Management
Our Evaluation   expressed concerns in achieving the estimated $1.3 million in annual efficiencies
                 and indicated that a system change would be necessary prior to expanding the




                                                                                                23
purchase card program as recommended. Following is a summary of
management's comments and our evaluation for all ten recommendations.

Recommendation No. 1

Management generally concurred with the recommendation to encourage and
monitor the use of purchase cards for all eligible micropurchases and
indicated that it expected to close the recommendation by March 10, 2003.
However, management did not believe that it was the Office of Procurement's
role to enforce the usage of purchase cards under the purchase card program.
Although management anticipated that dollar savings would result from
implementation of the recommendation, it did not concur with our estimate
due to the difficulty of projecting savings based on the successful usage of the
purchase card program by cardholders. For this reason, management did not
propose an alternative savings amount.

Automated Directives System (ADS) 302.3 states that the Office of
Procurement is responsible for developing, issuing and maintaining USAID's
acquisition regulations. We believe this includes the responsibility to enforce
proper use of purchase cards. In response to management's comments, we
moved our rebate estimate pertaining to increased usage of purchase cards for
micropurchases from Recommendation No. 3 to Recommendation No. 1. For
recommendations dealing with efficiencies, a management decision cannot be
reached until management and the OIG agree on the amount of estimated
savings. Consequently, we do not consider Recommendation No. 1 to have
received a management decision. Please provide within 30 days any
additional information related to actions planned or taken to implement this
recommendation, as well as any alternative savings amounts.

Recommendation No. 2

Management agreed with the goal of the recommendation to increase purchase
card usage above the micropurchase level, but did not believe it could
accomplish this without first correcting a system problem deemed to be a
disincentive to using purchase cards. Management indicated that it expected
this problem to be resolved, and the recommendation closed, by March 10,
2003. However, management did not indicate how it was going to increase
purchase card usage above the micropurchase level. Further, management did
not concur with our estimated savings amount or offer an alternative amount.

The intent of our recommendation was to have USAID increase the use of
purchase cards above the micropurchase level. We recommended that the
Office of Procurement accomplish this by revising the Automated Directives
System and by increasing the warrant authority, subject to appropriate
training, of current cardholders. Management's comments did not address this



                                                                              24
aspect of our recommendation, or present an alternative means to accomplish
the same objective. Further, for recommendations dealing with efficiencies, a
management decision cannot be reached until management and the OIG agree
on the amount of estimated savings. For these reasons, we do not consider
Recommendation No. 2 to have received a management decision. Please
provide within 30 days any additional information related to actions planned
or taken to implement this recommendation, as well as any alternative savings
amounts. In response to management's comments, we moved our rebate
estimate pertaining to increased usage of purchase cards above the
micropurchase level from Recommendation No. 3 to Recommendation No. 2.

Recommendation No. 3

Management concurred with all four procedural components of this
recommendation to increase purchase card rebates and indicated that they had
either already been accomplished or would be accomplished by September 30,
2002. However, management did not concur with our estimated dollar
savings. Although management acknowledged the potential of increased
rebates due to the implementation of this recommendation, it offered a counter
efficiency amount of $0.00 due to the number of variables that impact the
calculation of rebates.

Because we do not concur with management's estimated amount of potential
purchase card rebates, we do not consider this recommendation to have
received a management decision. However, in response to management's
comments, we moved our estimates for potential net volume rebates
pertaining to the increased usage of purchase cards below and above the
micropurchase level from Recommendation No. 3 to Recommendation Nos. 1
and 2, respectively. The remaining estimates under this recommendation are
only for the productivity and electronic commerce rebates. Assuming that
USAID successfully increases its purchase card usage and implements the
procedures in this recommendation, we believe that the estimated potential
rebates would be achievable. With the removal of the net volume estimates,
we request that management reconsider its estimates of potential productivity
and electronic commerce rebates and let us know within 30 days whether it
concurs with our estimated savings amounts.

Recommendations Nos. 4 through 10

Management concurred with all seven recommendations and indicated that
applicable policies and procedures will be developed to strengthen the internal
controls addressed in the recommendations. Management provided an
addendum to its initial audit response indicating a final action date of March
10, 2003 for each of the seven recommendations. Consequently, we consider
Recommendation Nos. 4 through 10 to have received a management decision.



                                                                            25
                                                                                            Appendix I

Scope and                Scope
Methodology
                         We audited the USAID purchase card program in accordance with generally
                         accepted government auditing standards. We conducted the audit fieldwork in
                         USAID/Washington from January to August 2001. The audit focused on
                         procurement transactions made by USAID/W during the period December
                         1998 through December 2000 and reported in the Aid Worldwide Accounting
image of purchase card   & Control System (AWACS) and to the Federal Procurement Data System
                         (FPDS) for fiscal years 1999 and 2000. We also evaluated USAID’s internal
                         controls over their purchase card program.

                         In particular, the AWACS universe included 18,021 micropurchase
                         transactions valued at $15,081,236 for the period reviewed. USAID also
                         reported a total of 6,196 transactions valued at $23 million under $25,000 and
                         6,648 transactions valued at $373 million under $100,000 for fiscal years
                         1999 and 2000.

                         In addition, to evaluate the adequacy of the USAID’s internal policies and
                         procedures for the purchase card program, we interviewed key USAID
                         personnel to determine if controls were adequate to prevent fraud or misuse of
                         the purchase card. We conducted interviews with cardholders and approving
                         officials to evaluate the type and frequency of the training received; the
                         delegation of authority thresholds; procedures used in purchasing, receiving,
                         and reconciling purchases and monthly statements. We assessed the
                         monitoring of the purchase card program by interviewing the Agency Program
                         Coordinator (APC) and reviewing the monthly reports provided to the APC by
                         Citibank.

                         We also reviewed “Best Practices” documentation from several other federal
                         agencies to determine how other agencies used the purchase card program to
                         streamline procurement actions.

                         Methodology

                         In order to achieve the objectives of this audit, we met with officials from
                         USAID’s Office of Procurement, Office of Financial Management, and the
                         Office of Information Technology. In addition, we met with the Office of
                         Management and Budget, the General Services Administration, and the
                         Citibank account representative. We also interviewed numerous USAID
                         purchase cardholders, USAID purchase card approving officials, and the
                         USAID purchase card coordinator. The audit did not cover purchase
                         cardholders or purchase card transactions outside USAID/Washington.

                         In addition, we also performed the following steps:



                                                                                                        26
•   reviewed current federal laws, regulations, policies, and directives to
    determine current requirements for the Governmentwide Commercial
    Purchase Card;

•   reviewed copies of USAID General Notices and Automated Directives
    System (ADS) to understand USAID’s policies and procedures
    regarding its governmentwide commercial purchase card program;

•   reviewed a copy of GSA’s master contract with approved commercial
    purchase card providers;

•   reviewed copies of monthly Citibank reports on USAID purchase card
    transactions to determine whether employees made any inappropriate
    or questionable charges to the purchase card account;

•   reviewed electronic databases from AWACS and Citibank for the
    period December 1998 through December 2000 to determine number
    and value of transactions;

•   randomly tested sample purchases, both purchase card transactions and
    non-purchase card transactions, from the AWACS database to
    determine:

•   whether purchase card transactions were appropriate and properly
    approved, and whether timely payment was made;

•   whether non-purchase card transactions were eligible for purchase card
    usage;

•   the percentage of transactions placed on the purchase card.




                                                                          27
                                                                                                             Appendix II



Management
Comments



                         U.S. AGENCY FOR
                          INTERNATIONAL
image of purchase card     DEVELOPMENT                                            MAR 11, 2002

                                 MEMORANDUM

                                 TO:              Dianne L. Rawl, Director, IG/A/PA

                                 FROM:            Mark S. Ward, Director, Office of Procurement /s/
                                                  Elmer S. Owens, Acting Chief Financial Officer /s/

                                 SUBJECT:         Audit of USAID's Governmentwide Commercial Purchase
                                                  Card Program (Report No. 9-000-02-00X-P)

                                    Thank you for the opportunity to comment on the draft of the subject audit report. We
                                 agree with the basic premise of the audit that the Agency should make much better use of
                                 the purchase cards to enable us to earn substantially more in rebates and to help reduce
                                 our procurement workload. It is also clear that we need to improve our policies and
                                 procedures in order to encourage more use and ensure that the cards are used properly.

                                    It is important to note that the Office of Procurement began implementing a purchase
                                 card pilot program in the fall of 2001 which includes the following five basic
                                 components: 1) issuance of an additional two hundred purchase cards (to qualified FSNs
                                 in our Missions) for micro-purchase transactions; 2) expansion of purchase card use for
                                 simplified acquisition transactions up to $100,000; 3) issuance of the purchase card as a
                                 payment mechanism to overseas Controllers for payment of all U.S. direct hire household
                                 effect expenses; 4) implementation of the C2IT program which allows payment of
                                 invoices to contractors within forty-eight hours from receipt of invoice; and 5)
                                 implementation of the ARIBA Buyer system which includes purchase card purchases.

                                     The audit does not address the basic systems problem that has limited the use of
                                 purchase cards for procurements over the micro-purchase threshold ($2,500). Currently
                                 purchase cardholders have to make entries into two automated systems, the A&A small
                                 purchase module and Phoenix, in order to complete acquisition actions over the micro-
                                 purchase threshold. Because of this system problem, those who had authority to make
                                 purchase card purchases over $2,500 rarely did so because it required double entry of the
                                 same data. Instead, they generally used purchase orders – which only required one entry
                                 -- for the same transactions. The Office of Procurement did not attempt to adjust the
                                 A&A system to eliminate the need for double entry for purchase card transactions
                                 because we planned to replace the entire A&A system this year. Budget reallocations




                                                        1300 PENNSYLVANIA AVENUE, N.W.
                                                           WASHINGTON, D.C. 20523




                                                                                                                             28
since September 11 and the new Agency-wide business transformation study have
delayed that effort.

   Fortunately, thanks to M/IRM, component five of the pilot program -- using ARIBA
Buyer instead of the A&A small purchase module -- should allow the Agency to make
purchase card purchases between $2,500 and $100,000 with a single entry. The pilot will
begin in four organizations: the Division in IRM that handles the GSA procurements, the
branch in M/OP that handles small purchases, the Overseas Management Services branch
within M/AS, and the Office of Security. Depending on the results of the pilot, the
Agency may decide to expand its use to all small purchases and obviate the need to fix
the A&A small purchase module. An assessment of the ARIBA Buyer pilot program will
be completed by June 30, 2002.

   The end of the Summary of Results on page 3, states that the report includes three
monetary recommendations. This sounds as though we are required to collect an amount
of money as part of the recommendation. Since ADS 592, Audit Management Program,
does not mention monetary recommendations, we believe these recommendations should
be classified as management efficiencies instead.

Recommendation 1: We recommend that the Office of Procurement develop and
document procedures to encourage, monitor, and enforce the use of purchase cards for
all eligible micro-purchases and save an estimated $452,000 in the succeeding 12-month
period.

Response: The Office of Procurement generally concurs with this recommendation. We
will update the existing purchase card procedures to encourage and better monitor the use
of purchase cards for all micro-purchases. As noted above, the Office of Procurement
will shortly issue policy guidance authorizing Mission's to issue purchase cards for
micro-purchases to certain FSNs.

   We do not believe it is an appropriate role for the Office of Procurement, nor are we in
a position to, enforce the use of the purchase card program, except to the extent that the
Office of Procurement refuses to process any more micro-purchases. Although we
anticipate dollar savings, it is difficult to project the annual estimated savings as this is
dependent upon the successful usage of the purchase card program by cardholders.

Recommendation 2: We recommend that the Office of Procurement revise the Automated
Directives System to authorize and encourage the routine use of purchase cards above
the micro-purchase level and develop a plan to provide the necessary training for
purchase cardholders to increase their delegation of authority, when appropriate, to
make purchases above the micro-purchase level and save an estimated $263,000 in the
procurement transaction costs during the succeeding 12-month period.

Response: While we agree with the goal of the recommendation, we cannot accomplish
this until we correct the system problem which requires double entry in Washington or
replace the A&A small purchase module with the Ariba Buyer product for all Agency



                                             2




                                                                                                29
small purchases. In the field, we can push for increased use of purchase cards and have, in
fact, already issued eight new cards to Mission Controllers to cover transportation of
household effects.

Recommendation 3: We recommend that USAID's Chief Financial Officer develop a plan
to qualify for additional rebates totaling $576,000 in the succeeding 12-month period by:

•   determining the optimal payment date for purchase card invoices, based on annual
    cost/benefit analyses;
•   developing and documenting procedures to help ensure that purchase card invoices are
    paid by that optimal date;
•   arranging with Citibank to receive purchase card invoices and reports electronically;
•   negotiating an increase in basis points with Citibank based on increased transactions.

Response: The Office of the Chief Financial Officer concurs with the recommendations
outlined in the draft report and will implement measures to ensure compliance. However,
we do not concur with the estimated dollar volume of rebates that USAID would qualify for
if all of the recommendations were fully implemented. The specific recommendations are
addressed below.

•   determining the optimal payment date for purchase card invoices, based on annual
    cost/benefit analyses;

The Office of the Chief Financial Officer concurs with this recommendation and will
implement measures to ensure compliance. Section 1315.8 of the Prompt Payment Act,
codified at 5 CFR Part 1315, addresses how agencies should determine payment dates for
commercial purchase card invoices. This section requires agencies to perform a
cost/benefit analysis to the Federal Government as a whole and make payments based on
the results of this analysis. During the period of time reviewed in this audit, FM/CMP did
not perform this required analysis. FM/CMP has performed this analysis for the current
year. Findings based on this analysis indicate that USAID should be paying the purchase
card invoice as close to the invoice date as possible. This should be done because the daily
current value of funds rate is calculated to the equivalent of 1.38 basis points
((.05/360)*100) while the daily basis points offered by Citibank for early payment is 1.5.
FM/CMP will implement a process that requires the cost/benefit analysis to be performed
once annually. Because the key indicator in this cost/benefit analysis is the interest on
funds held by the Treasury, FM/CMP will perform this analysis annually when the
Treasury Current Value of Funds Rate is published (this is published annually by October
31). FM/CMP will also factor in any efficiencies gained from enhanced payment processes
in performing this analysis when implemented.

•   developing and documenting procedures to help ensure that purchase card invoices are
    paid by that optimal date;



                                               3




                                                                                               30
The Office of the Chief Financial Officer concurs with this recommendation and will
implement measures to ensure compliance. As stated above FM/CMP had not performed
the required cost/benefit analysis in the past and therefore, has been processing purchase
card payments in compliance with the 30-day timeframe outlined in the Prompt Payment
Act. There were instances where the delay in the receipt of approval forms pushed the
payment timeframe past the 30-day window. To ensure that payments are made in
accordance with the findings of the cost/benefit analysis performed, FM/CMP will
develop and document procedures to meet this optimal payment date. FM/CMP has
already performed the required cost/benefit analysis as outlined above. FM/CMP will
develop and implement payment procedures consistent with Treasury guidelines in this
area to ensure maximizing the benefit to the government. Procedures will be developed
and implemented in USAID/W by June 30, 2002.

•   arranging with Citibank to receive purchase card invoices and reports electronically;

The Office of the Chief Financial Officer concurs with this recommendation and will
implement procedures to ensure compliance. For USAID to be eligible for this rebate, all
components of USAID receiving Citibank invoices are required to be billed electronically
and process payment electronically within 30 days from receiving the invoice. During
the past two billing cycles beginning December 2001 FM/CMP has received the monthly
Citibank invoice in electronic form via CD. During FY 2002, all USAID billing offices
not already receiving reports electronically will implement the transfer of invoice
information via Citibank’s Internet based system CitiDirect. In addition, all payments
processed to Citibank are processed via electronic fund transfer. As noted payments to
Citibank have not been consistently made within the 30-day timeframe required to meet
the rebate criteria. When the revised payment procedures are implemented along with the
electronic receipt of the invoice via CitiDirect (or other electronic means) USAID will
qualify for the electronic commerce rebate.

•   negotiating an increase in basis points with Citibank based on increased
    transactions.

The Office of the Chief Financial Officer concurs with this recommendation and will
implement procedures to assist in compliance. The basis points given to a government
agency in the calculation of the productivity rebate are negotiable when preparing a task
order from the GSA master contract. The number of basis points that an agency is able to
negotiate is normally directly related to the net sales volume of the program. Increasing
the use of the card would translate into leverage for negotiating higher basis points for the
productivity rebate.

USAID is currently a “tag” agency on a task order between Citibank and the State
Department. The task order negotiated from the master GSA contract was negotiated by
contracting officers in the State Department. In order to assist in the compliance of this
recommendation FM/CMP will monitor overall card usage on a quarterly basis. When an
appreciable increase in the card is recognized, FM/CMP will notify M/OP and assist to
assure that this feedback is provided to those responsible for the negotiation of basis


                                               4




                                                                                                31
points in the purchase card contract. It should be noted that the 14 basis points paid
under the net volume rebate are not negotiable under the current Citibank master contract.
This is a fixed number that Citibank offers all government clients.

In addition, it should be noted that the $576,000 refund increase noted in this report could
not be achieved by the implementation of these recommended financial management
practices alone. The audit report identifies potential increases in rebates as follows:

Net Volume Rebate - $151,000 annually
Productivity Rebate - $372,000 annually
Electronic Commerce Rebate - $54,000 annually

Total - $577,000 annually (note: the audit report identifies an annual total of $576,000.
We are not able to account for the $1,000 difference in the individual rebate totals and the
calculated total in the audit report.)

The net volume rebate is calculated solely on the net usage of the card. Under the current
GSA negotiated government-wide contract, USAID is paid 14 basis points (or .0014) for
the net charge volume on the purchase card. Therefore, fluctuation in the rebate amount
for net volume rebate will not be impacted by the implementation of any of the financial
management recommendations made in “Recommendation No. 3”. We recognize and
concur that the implementation of the other recommendations in the report that will bring
about changes in cardholder behavior and the procurement practices can impact this
rebate amount. Further, it should be noted that four (4) basis points of this is paid to GSA
as the “Industrial Funding Fee” leaving a net 10 basis points as the rebate amount
received by USAID. Therefore, to achieve the increase outlined in this audit report (net
of the GSA Industrial Funding Fee), USAID would have to increase net charge volume
on the purchase card by $151,000,000. This total exceeds USAID’s micropurchase
transaction dollar volume for 1999 and 2000 combined as outlined in this audit report.
Net charge volume also factors into the calculation of the productivity rebate. Therefore,
the productivity rebate could not reach the level specified in this report without a
dramatic increase in the use of the card by USAID. In addition to the net charge volume,
the payment turnaround time factors into the calculation of this rebate. Because the
optimal payment date is derived when factoring in the benefit to the government as a
whole, there could be instances when payment as close to the 30-day Prompt Payment
Act requirement is most beneficial to the government. In these instances the productivity
rebate would be significantly reduced or eliminated.

Further, the potential increase in the electronic commerce rebate outlined in this audit
report would be difficult if not impossible for USAID to achieve under the current
purchase card contract. Citibank, USAID’s current purchase card contractor sets the
rebate structure in accordance to terms in the General Service Administration’s master
contract and the tailored order that USAID is operating under through the GSA contract.
The current GSA master contract calls for purchase card service providers to offer a total
rebate for electronic commerce in the amount of $25,000 per month. This rebate is split
between all qualifying federal agencies that have Citibank as their purchase card


                                               5




                                                                                               32
contractor. The proration of the rebate is made to qualifying agencies based on the net
charge volume of the agency. Based on USAID’s relative size and card usage in relation
to other agencies that qualify for this rebate, it is unlikely that USAID could account for
the 18% of total Citibank net charge volume required to secure $54,000 in electronic
commerce rebates.

To summarize, the CFO recognizes the benefits of implementing recommendation #3 of
this audit report. The CFO will develop processes to ensure compliance with this
recommendation including a process to calculate, monitor and pay invoices by the
optimal payment date, an electronic invoicing/payment process and monitoring card
usage to assist in the negotiation of a more favorable rebate structure.

Recommendation 4: We recommend that the Office of Procurement develop and
implement procedures requiring purchase cardholders to use their purchase cards to
order goods and services from the U.S. Government's most preferred sources and that
they distribute purchases equitably among qualified suppliers.

Response: The Office of Procurement concurs and will ask the Office of General
Counsel whether or not the preferred sources requirement in the Federal Acquisition
Regulations applies to the Agency's program funding. We will develop procedures
accordingly.

Recommendation 5: We recommend that the Office of Procurement develop, document,
and distribute standard procedures, consistent with the Treasury Financial Manual, that
require cardholders to adequately safeguard purchase cards, and require that all
cardholders and approving officials comply with those procedures.

Response: The Office of Procurement concurs with this recommendation and will
implement procedures to ensure compliance.

Recommendation 6: We recommend that the Office of Procurement revise Agency
guidance to indicate the type of approval and support documentation required to be
maintained by cardholders, and develop procedures requiring that such documentation is
properly maintained.

Response: The Office of Procurement concurs with this recommendation and will
implement procedures to ensure compliance. The ARIBA Buyer pilot activity should
help us to determine the requirements to be established.

Recommendation 7: We recommend that the Office of Procurement revise Agency
guidance to indicate which purchase card transaction functions should be segregated
and develop procedures that require proper segregation of duties.

Response: The Office of Procurement concurs with this recommendation and will
develop policies that require appropriate segregation of duties.


                                               6




                                                                                              33
Recommendation 8: We recommendation that the Office of Procurement review its
purchase card training program and develop a plan to increase the subject matter
covered by the training, as well as determine how often cardholders and approving
officials should be required to receive training updates.

Response: The Office of Procurement concurs with this recommendation.

Recommendation 9: We recommend that the Office of Procurement review the staffing
and management structure of its purchase card program and determine the actions
necessary to provide the Agency Program Coordinator with the resources and authority
to properly administer the program.

Response: The Office of Procurement concurs with this recommendation and is
reviewing the needs of the program in terms of staff resources and grade levels.

Recommendation 10: We recommend that the Office of Procurement develop a plan and
procedures to monitor and manage its purchase card program as required by the
Treasury Financial Manual.

Response: The Office of Procurement concurs with this recommendation and will
develop and implement appropriate procedures.


Drafted by:KTriplett:M/OP/E:KO'Hara:M/OP/OD:DPace:M/FM/CMP:3/8/02




                                             7




                                                                                       34
                                                           Addendum 1 to Appendix II




 -----Original Message-----
From:            Ward, Mark
Sent:            Monday, March 11, 2002 10:49 AM
To:              Rawl, Dianne L.
Cc:              OHara, Kathleen; Turner, Connie
Subject:         Addendum to M/OP audit response

Diana -- We forgot to incorporate dates into our responses to recommendations 1, 2 and 4-10 for
purposes of making management decisions on those recommendations. Please make the
following part of our response.

For recommendations 1 and 4-10: M/OP expects to close the recommendation by March 10,
2003.

For recommendation 2: Whether we decide to expand the Ariba Buyer pilot to all small
purchases or adjust NMS A&A to eliminate the need for double entry, M/OP expects to close the
recommendation by March 10, 2003.

Thanks for your patience. Mark Ward




                                                                                                  35
                                                             Addendum 2 to Appendix II




-----Original Message-----
From:            Ostermeyer, David
Sent:            Monday, March 11, 2002 1:34 PM
To:              Rawl, Dianne L.
Cc:              Travis, Diane; Turner, Connie
Subject:         RE: Addendum to comments on Draft IG Audit Report on Credit Card Usage

I concur with the information provided below. Connie Turner is our point of contact if you have
further questions.

Ostermeyer

 -----Original Message-----
 From:           Turner, Connie
 Sent:           Monday, March 11, 2002 12:36 PM
 To:             Ostermeyer, David
 Cc:             Travis, Diane
 Subject:        Addendum to comments on Draft IG Audit Report on Credit Card Usage

 David: Please review the following additional information regarding recommendation 3 as
 submitted by Don Pace. If you are in agreement, please forward it on to Diane Rawl with a copy
 to me for the file. Thanks.

 CFO does not agree with the dollar volume of the rebates outlined in the draft report and will have
 to offer a counter efficiency amount of $0.00 due to the number of variables that impact the
 calculation of the rebates. As stated in this response, the implementation of the financial
 management recommendation proposed would not be the only factor in meeting the rebate
 amounts identified. Modifications to card usage and cardholder behavior would have to be
 implemented simultaneously with the FM recommendation to increase the amount of rebates
 received. Please note that the CFO is aware of the efficiencies that will be gained and the
 potential for increased rebates with the implementation of this recommendation and this is the
 basis for our concurrence. However, because the implementation of this recommendation is not
 the lone factor in the determination of the rebates, CFO cannot offer a counter total.

 Implementation for the four (4) sub-recommendations:

 1. Immediate - this has been done
 2. June 30, 2002
 3 & 4. September 30, 2002

 Let me know if you have further questions/concerns. Thanks.



 Connie A. Turner
 M/CFO
 RRB 2.10-020
 Tech Hub 10-115
 202-712-5693 or
 703-465-7152
 cturner@usaid.gov
 or connie.turner@att.net




                                                                                                   36
